<html>
<title> - CORPORATE GOVERNANCE: FOSTERING A SYSTEM THAT PROMOTES CAPITAL FORMATION AND MAXIMIZES SHAREHOLDER VALUE</title>
<body><pre>[House Hearing, 114 Congress]
[From the U.S. Government Publishing Office]








                   CORPORATE GOVERNANCE: FOSTERING A
                 SYSTEM THAT PROMOTES CAPITAL FORMATION
                    AND MAXIMIZES SHAREHOLDER VALUE

=======================================================================

                                HEARING

                               BEFORE THE

                  SUBCOMMITTEE ON CAPITAL MARKETS AND
                    GOVERNMENT SPONSORED ENTERPRISES

                                 OF THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED FOURTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           SEPTEMBER 21, 2016

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 114-102
                           
                           
                           
                           
                           
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                          
                           
                           
                           
                           
                           
                        U.S. GOVERNMENT PUBLISHING OFFICE 

25-946 PDF                     WASHINGTON : 2018 
-----------------------------------------------------------------------
  For sale by the Superintendent of Documents, U.S. Government Publishing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
         DC area (202) 512-1800 Fax: (202) 512-2104 Mail: Stop IDCC, 
                          Washington, DC 20402-0001
                             
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           
                           

                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                    JEB HENSARLING, Texas, Chairman

PATRICK T. McHENRY, North Carolina,  MAXINE WATERS, California, Ranking 
    Vice Chairman                        Member
PETER T. KING, New York              CAROLYN B. MALONEY, New York
EDWARD R. ROYCE, California          NYDIA M. VELAZQUEZ, New York
FRANK D. LUCAS, Oklahoma             BRAD SHERMAN, California
SCOTT GARRETT, New Jersey            GREGORY W. MEEKS, New York
RANDY NEUGEBAUER, Texas              MICHAEL E. CAPUANO, Massachusetts
STEVAN PEARCE, New Mexico            RUBEN HINOJOSA, Texas
BILL POSEY, Florida                  WM. LACY CLAY, Missouri
MICHAEL G. FITZPATRICK,              STEPHEN F. LYNCH, Massachusetts
    Pennsylvania                     DAVID SCOTT, Georgia
LYNN A. WESTMORELAND, Georgia        AL GREEN, Texas
BLAINE LUETKEMEYER, Missouri         EMANUEL CLEAVER, Missouri
BILL HUIZENGA, Michigan              GWEN MOORE, Wisconsin
SEAN P. DUFFY, Wisconsin             KEITH ELLISON, Minnesota
ROBERT HURT, Virginia                ED PERLMUTTER, Colorado
STEVE STIVERS, Ohio                  JAMES A. HIMES, Connecticut
STEPHEN LEE FINCHER, Tennessee       JOHN C. CARNEY, Jr., Delaware
MARLIN A. STUTZMAN, Indiana          TERRI A. SEWELL, Alabama
MICK MULVANEY, South Carolina        BILL FOSTER, Illinois
RANDY HULTGREN, Illinois             DANIEL T. KILDEE, Michigan
DENNIS A. ROSS, Florida              PATRICK MURPHY, Florida
ROBERT PITTENGER, North Carolina     JOHN K. DELANEY, Maryland
ANN WAGNER, Missouri                 KYRSTEN SINEMA, Arizona
ANDY BARR, Kentucky                  JOYCE BEATTY, Ohio
KEITH J. ROTHFUS, Pennsylvania       DENNY HECK, Washington
LUKE MESSER, Indiana                 JUAN VARGAS, California
DAVID SCHWEIKERT, Arizona
FRANK GUINTA, New Hampshire
SCOTT TIPTON, Colorado
ROGER WILLIAMS, Texas
BRUCE POLIQUIN, Maine
MIA LOVE, Utah
FRENCH HILL, Arkansas
TOM EMMER, Minnesota

                     Shannon McGahn, Staff Director
                    James H. Clinger, Chief Counsel
  Subcommittee on Capital Markets and Government Sponsored Enterprises

                  SCOTT GARRETT, New Jersey, Chairman

ROBERT HURT, Virginia, Vice          CAROLYN B. MALONEY, New York, 
    Chairman                             Ranking Member
PETER T. KING, New York              BRAD SHERMAN, California
EDWARD R. ROYCE, California          RUBEN HINOJOSA, Texas
RANDY NEUGEBAUER, Texas              STEPHEN F. LYNCH, Massachusetts
PATRICK T. McHENRY, North Carolina   ED PERLMUTTER, Colorado
BILL HUIZENGA, Michigan              DAVID SCOTT, Georgia
SEAN P. DUFFY, Wisconsin             JAMES A. HIMES, Connecticut
STEVE STIVERS, Ohio                  KEITH ELLISON, Minnesota
STEPHEN LEE FINCHER, Tennessee       BILL FOSTER, Illinois
RANDY HULTGREN, Illinois             GREGORY W. MEEKS, New York
DENNIS A. ROSS, Florida              JOHN C. CARNEY, Jr., Delaware
ANN WAGNER, Missouri                 TERRI A. SEWELL, Alabama
LUKE MESSER, Indiana                 PATRICK MURPHY, Florida
DAVID SCHWEIKERT, Arizona
BRUCE POLIQUIN, Maine
FRENCH HILL, Arkansas



























                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    September 21, 2016...........................................     1
Appendix:
    September 21, 2016...........................................    39

                               WITNESSES
                     Wednesday, September 21, 2016

Copland, James R., Senior Fellow and Director of Legal Policy, 
  Manhattan Institute for Policy Research........................     6
Engler, Hon. John, President, Business Roundtable................     5
Simpson, Anne, Investment Director, Sustainability, California 
  Public Employees' Retirement System............................     8
Stuckey, Darla C., President and Chief Executive Officer, Society 
  for Corporate Governance.......................................    10

                                APPENDIX

Prepared statements:
    Copland, James R.............................................    40
    Engler, Hon. John............................................   119
    Simpson, Anne................................................   126
    Stuckey, Darla C.............................................   231

              Additional Material Submitted for the Record

Engler, Hon. John
    Written responses to questions for the record submitted by 
      Representatives Hill and Hultgren..........................   248

 
                    CORPORATE GOVERNANCE: FOSTERING 
                     A SYSTEM THAT PROMOTES CAPITAL 
                        FORMATION AND MAXIMIZES 
                           SHAREHOLDER VALUE 

                              ----------                              


                     Wednesday, September 21, 2016

             U.S. House of Representatives,
                Subcommittee on Capital Markets and
                  Government Sponsored Enterprises,
                           Committee on Financial Services,
                                                   Washington, D.C.
    The subcommittee met, pursuant to notice, at 3:06 p.m., in 
room 2128, Rayburn House Office Building, Hon. Scott Garrett 
[chairman of the subcommittee] presiding.
    Members present: Representatives Garrett, Royce, Huizenga, 
Hultgren, Schweikert, Hill; Maloney, Sherman, Scott, Himes, 
Ellison, Foster, and Murphy.
    Chairman Garrett. Good afternoon. The Subcommittee on 
Capital Markets and Government Sponsored Enterprises will now 
come to order, albeit 1 hour and 5 minutes late due to votes.
    Without objection, the Chair is authorized to declare a 
recess of the subcommittee at any time.
    Today's hearing is entitled, ``Corporate Government: 
Fostering a System that Promotes Capital Formation and 
Maximizes Shareholder Value.''
    I thank the members of the panel who are here, and I thank 
the members of the subcommittee who are here. And at this 
point, I yield myself 5 minutes.
    So today the purpose of this, and what the subcommittee 
will do, is continue our work to address and improve the laws 
and regulations impacting the governance of public companies in 
the United States and ensure that our capital markets remain 
what they are, the most robust and competitive in the world.
    And so for that reason, I welcome all of our witnesses to 
the hearing. I thank you all for your flexibility in appearing 
because we had to reschedule. And I am sure you are aware, 
Congressional scheduling is not always the most predictable 
with first about scheduling this meeting and now rescheduling 
it for an hour later.
    And so as we look into this, the Federal securities law, 
the bedrock, if you will, of our capital markets were put in 
place, when? Eight decades ago, and it was done so to promote 
transparency of security offerings and to mitigate and enforce 
against fraud in the markets. And it was created at the time 
the SEC to carry out this very important mission.
    As this committee is well-aware, the SEC mission is 
threefold, to protect investors, maintain fair and orderly and 
efficient markets, and to facilitate capital formation. So 
Congress and market participants have long understood the SEC's 
missions as such, the three, and they have recognized that the 
securities laws were not created and were never intended to be 
a vehicle to advance a social or a political or other unrelated 
public policy goals.
    In recent years, however, an increasingly number of 
activists, who are often well-funded and very powerful, have 
sought to turn the SEC's missions on its head and instead to 
advance their idiosyncratic agendas by the way of the security 
laws. And this has then resulted in consequences that range 
from minor nuisances to humanitarian disasters. Let me give you 
an example.
    As was explained in the devastating 2014 Washington Post 
article and subsequent testimony before the Financial Services 
Committee, the Dodd-Frank conflict mineral provision has only 
served to deepen the humanitarian crisis in the Democratic 
Republic of Congo, and has driven actually more people into 
destitution and poverty.
    Of course, the conflict mineral rule is just one extreme, 
but I think it is instructive in that it shows the type of 
folly that occurs when the security laws are used for purposes 
other than what they were intended for.
    Today one of the most common vehicles for special interest 
groups to advance their agendas is the shareholder proposal 
process governed under Rule 14a-8 of the Securities Exchange 
Act.
    And if you look at this, the mischief that has occurred 
under this rule, particularly in recent years, is caused by a 
combination of extremely low thresholds for eligibility, as 
well as the increasing tendency of the SEC to err on the side 
of proponents, or to the unpredictability in deciding whether 
issuers should be granted no-action letters and relief for 
excluding a proposal from their proxy.
    To highlight just one example, the sudden decision last 
year by the SEC Chair Mary Jo White to reverse a staff decision 
regarding shareholder proposal at Whole Foods has eroded 
confidence in the SEC's ability to administer an objective and 
predictable no-action process.
    What is even more troubling, however, is the increasing 
political and driven activism by public pension plans across 
the country. See, the overseers of many of these plans, who 
ostensibly actually owe a fiduciary duty to the plans' 
beneficiaries, they are increasingly aggressive in their use of 
shareholder proposals or other means to target industries or 
businesses that they simply do not like.
    Not only is this a distraction for companies and their 
investors, it can also actually harm the workers and retirees 
who actually rely upon the income generated by these plans.
    Why do I say that? Well, because a recent study shows that 
the more public pension plans engage in social or politically 
driven activism, the less likely they will achieve returns for 
their portfolio.
    Keep in mind, state and municipal pension plans around the 
country are woefully underfunded, not because companies don't 
disclose enough about things like climate change, but because 
the political elites who are supposed to be looking out for the 
public workers have overpromised on benefits while chronically 
underfunding the plans themselves. In fact, one recent study by 
the Hoover Institute earlier this year estimated that the 
unfunded liability has reached $3.4 trillion.
    So I hope today's hearing will allow us to explore ways to 
reform the shareholder proposal process administered by the 
SEC, while also ensuring that if a shareholder has a good idea, 
that it can garner support and that his voice is still heard.
    This hearing will also examine the impact of some of the 
politicized corporate government provisions in Dodd-Frank, as 
well as the SEC's ongoing disclosure effectiveness initiative 
and mandates under the FAST Act to simplify disclosure 
obligation.
    With that, I now yield to the gentlelady from New York for 
5 minutes.
    Mrs. Maloney. Thank you. Thank you so much for holding this 
hearing. Corporate governance issues are often overlooked, but 
they affect the day-to-day operations of every public company 
in the country, both large and small.
    The title of this hearing, Corporate Governance, Fostering 
a System that Promotes Capital Formation and Maximizes 
Shareholder Value, of course in order to raise capital from 
investors and thus promote capital formation, you can't 
constantly strip shareholders of basic ownership rights.
    If you prevent shareholders from having any real say on how 
the company is operated, then you will certainly make 
management's life easier, but you will make capital formation 
harder. Investors simply won't buy shares if they get no 
ownership rights in return.
    One of the specific topics that we are asked to address 
today, is the SEC's rule governing shareholder proposals, known 
as Rule 14a-8. This rule lays out when a public company is 
required to include a shareholder's proposal in its proxy 
statement that it sends out to all shareholders ahead of its 
annual meeting, and also when a company is permitted to exclude 
a shareholder's proposal.
    In my view, both companies and the SEC should always err on 
the side of including shareholder proposals. After all, it is 
the shareholders who are the owners of the company.
    Last year the SEC took an important step toward restoring 
shareholders' right to have their proposals voted on at annual 
meetings, when it reversed an earlier decision that would have 
allowed Whole Foods to exclude a shareholder proposal from 
their proxy just because it dealt with the same topic as one of 
management's proposals.
    The SEC wisely reconsidered the Whole Foods decision and 
concluded that management should actually not be able to 
exclude a shareholder proposal that it doesn't like simply by 
submitting a similar one, but more management friendly proposal 
on the same general topic.
    While this was an important step, I believe there is much 
more the SEC can do to encourage shareholder participation in 
the proxy process. For example, the SEC's overly expansive 
interpretation of when a shareholder proposal deals with 
ordinary business operations, still allows management to 
exclude a whole number of legitimate shareholder proposals.
    I believe the SEC should undertake a full review of the 
ordinary business exclusion, just like it did in the Whole 
Foods matter, in order to recalibrate this exclusion and make 
it more shareholder friendly.
    Finally, there has been a lot of debate on so-called 
universal proxy ballots recently. I think that this is 
important. Under current law, shareholders who vote by proxy in 
a contested director election have to vote either for the 
management's entire slate of candidates or the shareholder 
proponents' entire slate of candidates.
    They cannot vote for some candidates from the management's 
slate and some from the proponents' slate. But if a shareholder 
attends the annual meeting in person, they can pick and choose 
from the two slates. This makes no sense at all.
    Shareholders should be able to use the proxy voting system 
to do everything they could do if they were there in person. A 
universal proxy ballot would allow shareholders to do just 
that. It would be a single proxy card that would list both 
management's directors nominees and the proponents' nominees 
and would allow shareholders to vote for whatever mix of 
nominees they see fit.
    This really should not be controversial. It is a common 
sense thing to do. So I was pleased last year when Chair White 
announced that she had directed the SEC staff to develop 
rulemaking recommendations on a universal proxy ballot. And I 
hope the staff will deliver their recommendations soon.
    I would like to submit a letter on all of these topics from 
the Council of Institutional Investors for the record and ask 
unanimous consent to do so. I look forward to hearing the 
testimony of the witnesses, and I yield back.
    Mr. Sherman. I would ask the gentlelady to yield her last 
minute?
    Chairman Garrett. Without objection so ordered, if the 
gentlelady yields her remaining time?
    Mrs. Maloney. I certainly yield to the gentleman from the 
great state of California.
    Mr. Sherman. The most connected and powerful people in this 
country, the CEOs of the 1,000 or 2,000 largest corporations, 
anything that inconveniences them is branded as political, 
aggressive or a distraction.
    The fact is that we should be concentrating on how the laws 
of the state of Delaware prevent us from getting shareholder 
value by having everything rigged in favor of those CEOs and 
nothing in the interest of those shareholders who may want to 
see a change in management.
    And to say that investors are disadvantaged because they 
are given a chance to prevent themselves from investing in a 
company that is putting their money in Iran, in its oil fields, 
such a management is dumb and should be avoided and is 
financing the creation of nuclear weapons, which will have an 
adverse effect on corporate profits worldwide. I yield back.
    Chairman Garrett. Gentleman yields back.
    And with that we turn now to the panel, and again, I 
welcome all the members here for the panel. For those of you 
who have not testified before us, your complete record will be 
and has been submitted for the record officially.
    We will yield you 5 minutes. Somewhere in front of you 
should be a little clock that goes red, green--or rather, 
green, yellow and red. Green means that you have 5 minutes. 
When it comes up to yellow that means that is your one-minute 
warning, and then red means you are in overtime. So try not to 
do overtime.
    So with that, starting from left to right, Governor Engler, 
welcome, and you are recognized for 5 minutes.

  STATEMENT OF THE HONORABLE JOHN ENGLER, PRESIDENT, BUSINESS 
                           ROUNDTABLE

    Mr. Engler. Good afternoon, Mr. Chairman, Ranking Member 
Maloney, and members of the subcommittee. I am John Engler, as 
you have indicated, president of the Business Roundtable, an 
association of CEOs of major U.S. companies, such as 
Congressman Sherman just mentioned, that operate in every 
sector of the U.S. economy.
    And I want to thank you for the opportunity to provide the 
perspective of these U.S. business leaders and large employers 
on improving the regulatory environment that governs America's 
capital markets.
    We appreciate the committee's attention to these important 
issues. In particular, Chairman Hensarling's Financial Choice 
Act represents a serious effort to reform provisions in Dodd-
Frank that Business Roundtable CEOs have identified as 
detrimental to their ability to invest, to hire and expand.
    I would like to focus on two issues today, the current U.S. 
public company disclosure regimen and the shareholder proposal 
process. First on disclosure, Business Roundtable believes the 
country needs a renewed commitment to the materiality standard, 
the bedrock principle for U.S. securities laws since 1933.
    SEC Chairman White, I should note, has been forceful in her 
support of materiality, and we thank her for that support. As 
we documented in a white paper last October, the materiality 
standard ensures that required disclosure provides investors 
with the information that is essential to making effective 
investment in proxy voting decisions.
    Unfortunately, the adherence to the materiality principle 
has eroded. Congress and the SEC have increasingly turned to 
the disclosure system to address social, political and 
environmental issues, issues more effectively addressed through 
other means and issues that certainly do not meet the 
materiality standard.
    The results are higher costs to shareholders and an ever-
increasing complexity, and the amount of information that 
reasonable investors receive that is unrelated to investment 
and proxy voting decisions.
    America's business leaders strongly urge Congress to 
abstain from enacting new mandates and review earlier actions 
that are contrary to the materiality standard. We believe the 
Choice Act provides an opportunity to conduct such a needed 
review.
    The second point today, the U.S. shareholder proposal 
process. The current process is outdated and is being abused. 
This abuse imposes significant costs on companies, limits their 
ability to focus their resources on the long-term creation of 
value for shareholders that Mr. Chairman you mentioned in your 
opening comments.
    In too many cases, the current shareholder proposal process 
has been hijacked by corporate gadflies and political 
activists. These individuals often have insignificant economic 
stakes in target companies.
    Their proposals pursue idiosyncratic, social or political 
agendas unrelated to the interests of shareholders as a whole. 
They impose significant costs on the corporation, which then 
are passed on to ordinary investors, senior citizens, savers, 
retirees. We believe two factors are driving this negative 
trend.
    First, the threshold for submitting a proposal is too low. 
To be qualified to submit a proposal, a shareholder must own 
only $2,000 in market value, or 1 percent, whichever is less of 
a company's outstanding stock released one year. The $2,000 
threshold in particular falls well short of any reasonable 
material ownership standard for public companies.
    And second, it is difficult for a company to exclude 
proposals relating to general social issues. For several 
decades, the SEC permitted corporate managers to exclude 
proposals submitted ``primarily for the purpose of promoting 
general economic, political, racial, religious, social, or 
similar causes.''
    In 1970, however, the D.C. Circuit Court of Appeals ruled 
against the SEC and broadened the types of proposals that could 
not be excluded. The result? An influx of proposals on social 
issues.
    Last year, activist shareholders filed 479 social, 
environmental and political proposals. And this stream of 
proposals remains steady with more than 400 such proposals 
submitted for 2016 meetings.
    These kinds of proposals are rejected repeatedly, mostly by 
overwhelming margins, only to be submitted again next year. In 
the interest of time, we believe the SEC should bring that 
$2,000 holding requirement up to date. The current holding 
requirement for stockholders should be lengthened.
    We would also strength disclosure requirements for 
proponents of shareholder proposals and modernize the exclusion 
process so companies can focus on material issues.
    So thank you for the opportunity to be here today. We are 
committed to promoting an environment for U.S. capital markets 
that facilitates greater long-term value growth for our owners 
and investors, the employees and consumers.
    [The prepared statement of Mr. Engler can be found on page 
119 of the appendix.]
    Chairman Garrett. Thank you, Governor.
    Now next up from the Manhattan Institute, senior fellow and 
Director of legal policy, you are recognized for 5 minutes, Mr. 
Copland.

 STATEMENT OF JAMES R. COPLAND, SENIOR FELLOW AND DIRECTOR OF 
     LEGAL POLICY, MANHATTAN INSTITUTE FOR POLICY RESEARCH

    Mr. Copland. Thank you, Mr. Chairman, Ranking Member 
Maloney, and members of the subcommittee. I would like to thank 
for the invitation to testify today. My name is James R. 
Copland and I am a senior fellow with the Manhattan Institute 
for Policy Research, a public policy think tank in New York 
City. I have directed the institute's legal policy efforts 
since 2003.
    The shareholder proposal process governed by SEC Rule 14a-
8, has constituted a significant focus of my research. In 2011, 
I helped launch the Manhattan Institute's proxy monitor 
database, a publicly available catalog of shareholder proposals 
at the 250 largest publicly traded American companies. Over the 
past 5 years I have periodically authored reports on the 
shareholder proposal process.
    The SEC's Rule 14a-8 permits stockholders of publicly 
traded companies who have held shares valued at $2,000 or more, 
as the governor just said, for at least 1 year to introduce 
proposals for shareholders' consideration at corporate annual 
meetings.
    The SEC's process is ripe for reform. It has strayed far 
from the principal legal purpose authorizing the rule under the 
Securities Exchange Act. It has been used almost exclusively by 
a small number of investors with a focus potentially or 
actually centered on concerns other than maximizing share 
value.
    And it has actually operated to permit such a minority of 
shareholders to extract corporate rents or influence corporate 
behavior to the detriment of the average diversified 
shareholder. My written statement discusses these issues in 
more detail, as do two reports included in the record, both of 
which are available here in hardcopy today.
    I would like to emphasize the following facts drawn from my 
research. One, a small group of individuals, often referred to 
as corporate gadflies, repeatedly file substantially similar 
proposals across a broad set of companies.
    In 2016, six gadfly investors and their family members have 
sponsored one-third of all shareholder proposals. Typically, as 
the governor suggested, these individuals own very small 
percentages of a company's stock.
    For instance, John Chevedden, the most active sponsor of 
shareholder proposals dating back to 2006, has made 
substantially the same proposal at Ford Motor Company each of 
those years. In 2016, Mr. Chevedden owned 500 shares of Ford 
stock, which is equivalent to about 0.00001 percent of the 
company's outstanding float.
    Number two, a large percentage of shareholder proposals 
concern social or policy goals that may not be related or at 
least have an attenuated relationship to share value. In 2016, 
to date, half of shareholder proposals have related to a social 
or policy issue, which is an all-time high.
    Number three, these social and policy related shareholder 
proposals have consistently been rejected by most shareholders. 
Over the last 11 years, at Fortune 250 companies, 1,444 
shareholder proposals related to social or policy concerns had 
been presented to shareholders for a vote over board 
opposition. All but two of those failed to garner majority 
shareholder support.
    Number four, a large percentage of institutional 
shareholders vote their shares based on the advice of proxy 
advisory firms, whose power over shareholder voting is vast. A 
2012 analysis I authored for the Manhattan Institute found that 
a recommendation that shareholders vote for a given shareholder 
proposal by the largest proxy advisor firm, ISS, was associated 
with a 15 percentage point increase in the shareholder vote for 
any given proposal.
    My research also shows that ISS has historically been 
almost eight times as likely as the median shareholder to 
support a shareholder proposal, in particular, social and 
policy oriented proposals.
    Number five, over the last 10 years, 31 percent of all 
shareholder proposals were resubmissions of a preceding year's 
proposal. Under current SEC rules, any proposal that receives 
at least 10 percent shareholder support can never be excluded 
from a company's proxy ballot in future years for want of 
support.
    The current SEC rule means that a single proxy advisory 
firm, ISS, effectively serves as the gatekeeper for shareholder 
proposal resubmissions. If ISS supports a proposal, it can 
remain indefinitely on the ballot.
    And number six, the ultimate test of whether shareholder 
proposals are an effective tool is whether they enhance share 
value. Last year, the Manhattan Institute commissioned an 
econometric study on this issue by Tracie Woidtke, a professor 
at the University of Tennessee.
    Woidtke found that public pension funds' social issue 
shareholder proposal activism appears to be negatively related 
to firm value. As such, shareholder proposal activism intended 
to affect corporate behavior in pursuit of social or policy 
goals may be harming the financial interests of the average 
diversified investor as well.
    In conclusion, it is hard to argue that the 14a-8 
shareholder proposal process is functioning well. Rule 14a-8 is 
a longstanding rule that has some utility, but activists have 
seized upon the SEC's outdated and overly permissive standards 
to push policy agendas in an effective end run around Congress.
    Congress has an interest in addressing this situation and 
reorienting the SEC around its statutory obligation to promote 
efficiency, competition and capital formation. Thank you.
    [The prepared statement of Mr. Copland can be found on page 
40 of the appendix.]
    Chairman Garrett. And I thank you.
    Moving next, Ms. Simpson from California Public Employees' 
Retirement System, you are recognized for 5 minutes.

STATEMENT OF ANNE SIMPSON, INVESTMENT DIRECTOR, SUSTAINABILITY, 
         CALIFORNIA PUBLIC EMPLOYEES' RETIREMENT SYSTEM

    Ms. Simpson. Thank you very much, Chairman Garrett, Ranking 
Member Maloney, and other members of the subcommittee. Thank 
you very much for inviting us to testify at today's hearing. I 
am Anne Simpson. I am the investment director for 
sustainability at CalPERS.
    We greatly appreciate the subcommittee's focus on corporate 
governance and on ways to foster a system that promotes capital 
formation and maximizes shareowner value. This is a subject of 
vital importance to CalPERS, which is the largest public 
pension in the United States with over $300 billion in global 
assets.
    We own shares in over 10,000 companies worldwide and we are 
a fiduciary. We invest for our 1.8 million members, who include 
public servants such as the police, firefighters, judges, and 
others.
    For every dollar that we pay out in benefits to our 
members, fully 65 cents are generated by investment returns, 
which is why the topic of today's hearing is so important. Just 
as a sense of how important we are in our own local economy, we 
pay out close to $20 billion in retirement benefits every 
single year.
    So the topic of today is important to us because we are a 
significant provider of capital to U.S. financial markets 
which, as the Chairman rightly said, are the largest and the 
most dynamic in the world.
    We rely on the safety and soundness of those capital 
markets to advance our long-term investment strategy, which in 
turn we see supports the growth in the wider economy. The 
CalPERS principles are the framework by which we advocate for 
smart regulation that is designed to spur that economic growth 
upon which we rely and to ensure that our capital markets 
prosper.
    As you will be aware, the chaos of the financial crisis 
caused our fund to lose something in the order of $70 billion. 
We went into the crisis overfunded, and we believe it will take 
us 30 years to grow back to being fully funded. And we are 
still living with the impact of that catastrophe in the 
markets.
    The principles also guide how we execute our shareowner 
proxy voting responsibilities and a copy is attached to our 
written testimony. We believe that a system that operates with 
accountable and transparent corporate governance, which 
promotes capital formation to achieve the best returns for 
shareowners over the long term is the objective of today's 
hearing, which we fully support.
    Although my testimony does not capture all the elements 
that we think are important, I would like to call out a few 
elements which are considered today. The first is executive 
compensation. The second is corporate governance and 
transparency. These three are crucial to strengthening the U.S. 
financial system for the benefit of long-term investors like 
CalPERS.
    First, we advocate executive compensation which is fully 
disclosed and aligns interest between management and long-term 
owners. Accordingly, we strongly support the SEC rulemakings 
related to both say-on-pay, as it is known, executive 
compensation clawbacks, and also to pay ratio disclosure.
    Secondly, we firmly embrace accountable corporate 
governance. That is why we support the renewal of an SEC 
rulemaking for proxy access, which would allow long-term 
significant owners to nominate board candidates to the ballot.
    The use of Rule 14a-8, which by most large owners like 
ourselves was modeled on the vacated SEC rule, is a good 
example of how engaged owners can bring important reform into 
the market.
    We welcome the opportunity to vote on proposals put forward 
by fellow shareholders, whether they be large, like ourselves, 
or whether they be small. Often issues are raised, which is of 
interest and draw to the attention of other owners and of 
management. These small shareholders can be the eyes and ears 
of the company, if you like, a canary in the mine.
    We also want to ensure that proxy advisory firms are well-
regulated and transparent. But with our view that regulation 
should be smart, we do oppose efforts to create an unduly 
burdensome regulatory regime.
    Third, our focus is on corporate financial reporting, which 
is vital. We want to ensure transparent and relevant 
information about economic performance and condition of 
businesses. And with the greatest respect, given that the 
reports are for the benefit of investors, we consider that it 
is investors who should determine the range and scope of what 
is material.
    Transparency is vital to us in all matters, and we consider 
that the current disclosure regime review of Regulation S-K is 
exceptionally helpful. We have provided detailed comments to 
the SEC.
    We do see great advantage in technology in spurring new 
areas of reporting, for example on new risks like those related 
to climate change. Finally, we urge full funding for the SEC in 
order that it can properly do its vitally important job. Thank 
you. I look forward to answering any questions you may have.
    [The prepared statement of Ms. Simpson can be found on page 
126 of the appendix.]
    Chairman Garrett. And I thank you.
    Finally last but not least, from the Society of Government 
Professionals, President and CEO Ms. Stuckey. You are 
recognized for 5 minutes.

 STATEMENT OF DARLA C. STUCKEY, PRESIDENT AND CHIEF EXECUTIVE 
           OFFICER, SOCIETY FOR CORPORATE GOVERNANCE

    Ms. Stuckey. Thank you, Chairman Garrett, Ranking Member 
Maloney, and members of the subcommittee. Thank you very much 
for the opportunity to testify. I am Darla Stuckey. I am CEO of 
the Society for Corporate Governance, which represents about 
1,000 public companies.
    U.S. public companies are bearing the brunt of a broken and 
outdated disclosure system. How did we get here? In the 1970s, 
social activists had no better way to disseminate their message 
broadly than to use a public company proxy.
    Today, however, we have the Internet. The need to use a 
corporate proxy statement as a public forum for social issues 
is now moot, yet the disclosure regulations have not kept up 
with the pace of this change.
    My testimony today will focus on abuses associated with 
corporate disclosure, in particular Rule 14a-8. The purpose of 
Rule 14a-8 is to foster communication between shareholders and 
companies, as well as among shareholders themselves on issues 
of importance.
    However, it has limits designed to protect a small minority 
of shareholders from burdening others. One of these limits is 
Rule 14a-8i12, the resubmission thresholds. A company can 
exclude a proposal if the proposal fails to receive 3 percent 
support the first year, six the second and 10 the third year.
    This means, as I think has been said by Jim, if a proposal 
receives 10 percent of support or more, it can be resubmitted 
each year indefinitely, or what some have called the tyranny of 
the 10 percent. In fact, Con Ed shareholders voted on the same 
executive comp proposal from Evelyn Y. Davis every year for 16 
years.
    The commission should raise these thresholds. They have not 
been changed since 1954 when President Eisenhower was in 
office.
    In 1997, the commission tried to raise them from the 3, 6, 
10 percent, to 6, 15 and 30 percent. However, they failed to do 
so because of serious concerns from special interest 
shareholders who were afraid that too many of their social 
proposals would be excluded.
    But times have changed. Given current voting patterns, 96 
percent of all proposals now pass the 3 percent threshold in 
the first year, so this is really not a meaningful threshold at 
all. Comparing the voting data in 1997 and 2015 shows that a 
failure rate under the 3, 6, 10 percent regime would compare to 
about 5 percent, 15 percent, 25 percent today. So at a minimum, 
we need to go back to where the commission tried to go in 1997.
    Second, the proposal process is being abused by non-
shareholders. Rule 14-8b requires a proponent to hold at least 
$2,000 worth of stock for a year in order to submit a proposal. 
This means at a minimum the proponent must own the shares and 
have an economic stake in the company.
    Despite this rule, commission staff routinely allow 
individuals, advisors and others to submit 14a-8 proposals on 
behalf of shareholders without requiring them to have an 
economic stake. We call this proposal by proxy, and it should 
be stopped.
    A shareholder who has no interest in submitting a proposal, 
can lend his shares to someone who does and a company can't 
then deal with the actual shareholder. Companies have sought 
relief in Federal courts and won, even though the staff refuses 
to grant relief.
    We don't understand why this is the case since it 
undermines the purpose of the rule, which again is to foster 
communication between shareholders and the company or amongst 
shareholders themselves. We believe the right to submit a 
shareholder proposal is not freely assignable.
    There is one other limit on proposals known as the 
relevance rule. It provides that a proposal can be excluded 
when it relates to operations that account for less than 5 
percent of the company's total assets and net earnings and is 
not otherwise significantly related to the business.
    The staff interpretations of this exclusion have 
effectively eliminated the 5 percent economic thresholds in the 
rule. For example, assume a proponent doesn't believe Acme Corp 
should be doing business in Myanmar because of human rights 
concerns in the country.
    Even if Acme Corp's annual revenues from Myanmar are less 
than 1 percent, the company must include the proposal in its 
proxy because the commission staff has said that the issue of 
human rights is a significant policy issue.
    If a shareholder want to access the corporate proxy, he or 
she should demonstrate that the issues are relevant to at least 
5 percent of the company's business. That is the rule, but it 
is not being enforced.
    Turning to the materiality standard, we also believe that 
the standard in TSC v. Northway works and should be not be 
changed. We applaud the SEC for undertaking disclosure 
effectiveness. We just worry that it may open avenues to new 
special interest disclosure.
    Three things to remember, the SEC under your oversight and 
jurisdiction, is the agency responsible for public company 
disclosure. It should not let others who claim to be standard 
setters usurp that role. The SEC should write the rules.
    Number two, writing an actual materiality rule would be 
impossible as a practical matter. What is material for one 
company is based on the facts and circumstances of that 
company.
    And three, not every piece of information that is important 
to an investor is material, and not every piece of information 
that is important needs to be in a publicly filed document.
    Companies can and do communicate outside of 34f filings. In 
fact, a great deal of helpful sustainability reporting is on 
corporate websites and published reports.
    Apologies, I refer to the rest of my testimony. Thank you.
    [The prepared statement of Ms. Stuckey can be found on page 
231 of the appendix.]
    Chairman Garrett. That is fine. Thank you very much. I 
thank everyone for their testimony, and at this time, I will 
yield myself 5 minutes to begin the questions, and I guess I 
will jump around.
    Governor Engler, so you brought up, and Ms. Stuckey you 
ended it there, on the issue of materiality. Maybe not the most 
exciting discussion in the world, but let us just spend 30 
seconds or a minute on that. As was indicated by a couple of 
the panelists, and you yourself included that there is a push 
now to, what, redefine what materiality is?
    The SEC issued a concept released earlier this year that 
posed a question of whether if you change the definition to 
expand it, as you refer to in your testimony. Can you just 
spend 30 seconds addressing what the consequences of expanding 
the definition of materiality would be to include such things 
as sustainability and such things as climate change, or 
whatever else it could be expanded into?
    Mr. Engler. Thank you--
    Chairman Garrett. Yep.
    Mr. Engler. --Mr. Chairman for the question. I think that 
expanding it further would render it almost moot. The concept 
going back I think to--I mentioned to the beginning, 1933, 
really was what is essential for that investor to know?
    And there are an unlimited number of topics that we could 
ask a company to respond to, but many of those have little to 
do with the company and its operations and its worthiness as an 
investment.
    Chairman Garrett. And who--okay. And who should be defining 
then what materiality is? Is that the SEC? Is that Congress? Is 
that the investors?
    Mr. Engler. Well, it used to be the SEC. That is who we 
delegated the regulation of the, you know, the corporate sector 
to, and that is why we set up this commission. We thought it--I 
wasn't around in the 1930s when they were doing this, but I 
think that the thought was that the SEC would take on this 
responsibility.
    What has happened in recent years, there have been 
requests, some of it reflected in some of the testimony today 
from panelists about adding to that, for instance, political 
disclosures, duplicating that. That is covered--there are other 
laws doing that.
    Congress stepped in with CEO pay ratio, one of the more 
useless requirements that have come down in a long time.
    We have seen, you know, on conflict minerals, as you 
mentioned in your opening testimony, the adverse impact and the 
unexpected impact of some of this. And what we end up doing is 
overloading that proxy statement. We will get a proxy statement 
the size of a phonebook, I am afraid.
    Chairman Garrett. Is that isn't the case where sometimes 
too much information, that you lose the significance of it?
    Mr. Engler. That would be our position.
    Chairman Garrett. Right. And isn't it also the case, 
correct me if I am wrong, is the case some companies make some 
decisions unilaterally, I guess, outside the materiality issue 
to say we are going to address the issue of sustainability or 
what have you. And they have the ability and the right to do 
this, though, right?
    Mr. Engler. That is correct. And there are many companies 
who independent of any of their obligated reporting--
    Chairman Garrett. Obligated.
    Mr. Engler. --will issue sustainability reports. We at the 
Roundtable actually publish an annual sustainability report.
    Chairman Garrett. Well, there you go.
    And Ms. Stuckey, then you made mention on the resubmission 
thresholds, and actually, did I hear Ms. Simpson, did you say 
that one of the criteria should be long-term significant 
owners? Did I hear that correctly as far as--I am jumping 
around there I guess--as far as who should meet the threshold 
for proposing? Did I hear those terms, long-term significant 
owners in your testimony?
    Ms. Simpson. Yes. I--
    Chairman Garrett. Yep, yep, yep.
    Ms. Simpson. Excuse me. I didn't push the button. That is 
our view with proxy access--
    Chairman Garrett. Yes, right.
    Ms. Simpson. --because this is actually addressing a 
fundamental issue in the governance. Our view on the other 
issues which were mentioned--
    Chairman Garrett. No, let me just stay on that one. So a 
long-term significant owner because the rule is how long do I 
have to own it right now?
    Ms. Simpson. There isn't a rule--
    Chairman Garrett. Okay, and so when you say--
    Ms. Simpson. --it was vacated in court--
    Chairman Garrett. When you are suggesting long term, what 
should long term be?
    Ms. Simpson. For us it is a minimum of 3 years holding 
continuously.
    Chairman Garrett. Okay. And I see, Mr. Copland, you just 
popped your hand, so did you want to chime in on that? And then 
I will go to Ms. Stuckey.
    Mr. Copland. Oh, well, the rule is 1 year for shareholder 
proposals. That it has to be an ownership period for 1 year and 
$2,000 worth of stock.
    Chairman Garrett. Right. And is that satisfactory?
    Mr. Copland. Well, I tend to agree with the governor that 
the $2,000 is quite low. The direct cost that is imposed on the 
company, just the cost of printing, duplication, distribution 
substantially exceeds.
    Now the time period is a bit of a tricky question. And this 
is where I may not always agree with the corporate side to some 
degree on these because I am not--
    Chairman Garrett. But something longer than what we have 
right now?
    Mr. Copland. --adverse to things like hedge funds or things 
like that, that are coming in. If they have a big stake and 
they are trying to turn a company around--
    Chairman Garrett. Yes.
    Mr. Copland. --you know, to say they can't have a 
shareholder proposal if they are buying 9 percent of the 
company to me doesn't necessarily make sense.
    Chairman Garrett. And in my--okay. And in the last 13 
seconds as to where I was going to go, Ms. Stuckey, as far as 
the resubmission rate, those numbers in that area are 
surprising to me. Do you want to address what you were saying--
    Ms. Stuckey. What do you mean? Well, we think it should go 
at least back to where they proposed in 1997. Yes, we need to 
get it there because basically it is a sieve and everything is 
going through.
    Chairman Garrett. So basically no matter how many times--
once you hit that threshold, no matter how many times you 
will--
    Ms. Stuckey. Once you hit 10 percent every year then you 
don't have to--you can put it in forever. And the purpose is, 
you know, there are a lot of good shareholder proposals. As Jim 
said, 50 percent of them are the social proposals. There are 50 
percent that are not.
    Also, I want you to know that a lot of good comes about, 
the communication between shareholders and companies when 
proposals get made.
    Chairman Garrett. Yes.
    Ms. Stuckey. In fact that is why they put a sustainability 
disclosure on their website. So we are not saying that they are 
all bad. We are just saying that the rules are not being 
enforced accurately by the SEC.
    The 10 limits one a little too much, a little too investor 
friendly, and we would like the timeframes and the thresholds 
to be readjusted.
    As far as the initial $2,000, it was changed from $1,000 to 
$2,000 in 1998. If you kept up with inflation now--
    Chairman Garrett. Yes, what is that?
    Ms. Stuckey. --it would be--sorry--it would be $3,000. It 
would be $3,000.
    Chairman Garrett. That is what I was going to say, it 
doesn't get that high. I would have thought it would be higher 
than that, but--
    Ms. Stuckey. I know.
    Chairman Garrett. --by inflation. Well, I guess we haven't 
had any inflation for the last 8 years because everything been 
flat under this administration, right? There is no economic 
growth so you don't have any inflation.
    So with that, I will now turn to the gentlelady form New 
York for 5 minutes.
    Mrs. Maloney. Thank you.
    Thank you Mr. Chairman.
    And I would like to ask Ms. Simpson, I would like to ask 
you about board diversity. And as you know, I have introduced a 
bill with bipartisan support that would require public 
companies to disclose the gender composition of their board in 
their proxy materials.
    And that they would send it to shareholders. Now, this 
would just not be any more paperwork. It would just be checking 
another box and telling whether or not you have gender 
diversity. And this came about because of organizations such as 
yours that was asking for this information, wanting to know 
more about it.
    And there were two studies that were reported in a GAO 
report that talked about companies that had gender diversity. 
It increased their bottom line profits by roughly 5 percent. 
Now, I want to thank you for the letter that you wrote in 
support of the bill, and that you have long been an advocate of 
even greater board diversity.
    I was focusing on gender because that was what the research 
had shown the differential on. But can you talk about the 
importance of board diversity from an investor's perspective? 
And is there evidence that greater boardroom diversity helps 
increase the company performance beyond the two financial 
services reports that were previously issued?
    Ms. Simpson. Thank you for the question. CalPERS has 
conducted a very extensive research of the evidence on such 
topics in a database that is freely available called the 
Sustainable Investment Research Initiative. We have over 2,000 
papers and you can search by topic if you would like to find 
the detail.
    The research that we have reflected on shows that diversity 
is good for two aspects of investment, both risk management 
because diversity challenge is group think. And you will recall 
that after the financial crisis, even the IMF said, group think 
was the corrosive common factor in boardrooms that led it to 
the brink of so much trouble. So group think is a problem.
    Different perspectives are important, particularly when 
companies are facing complexity and new issues for the long 
term. Climate change is a very good example. The other thing 
that we are finding though is that diversity is good for talent 
recruitment.
    If you confine yourself to the existing small, relatively 
well-known member of, for example, putting in criteria such as 
a former CEO of a Fortune 500 company, you will unfortunately 
be fishing in a very small pool.
    And if you throw the net more widely, then the talent that 
companies need for global competitiveness is more readily 
available. And that is why the CalPERS definition is 
multifaceted.
    We see gender, race, ethnicity and very interesting, we had 
a presentation from Credit Suisse to our board, which showed 
that for the LGBT community evidence that companies were 
inclusive in this regard was also associated with recruiting 
better talent and the result was better performance, 
particularly where financial services companies were concerned.
    Mrs. Maloney. Mr. Chairman, I ask permission to place in 
the record CalPERS' letter on gender diversity and corporate 
leadership, as well as a letter in support of my bill from the 
Chamber of Commerce.
    Chairman Garrett. Without objection, it is so ordered.
    Mrs. Maloney. Thank you.
    Ms. Simpson, as you know the SEC's rule on proxy access was 
overturned by the D.C. Circuit Court back in 2011. And while 
the SEC did not appeal that ruling, or re-propose proxy access, 
I understand that institutional investors such as CalPERS have 
still been relatively successful in engaging with companies in 
order to achieve proxy access to invigorate board elections and 
make boards more accountable.
    Can you discuss CalPERS' efforts on this issue since 2011?
    Ms. Simpson. Yes, thank you. I would be glad to. Again, it 
is important to know that this element of good governance is 
associated with better performance. You will have seen last 
year, the CFA, the Charter Financial Analysts producing a study 
which drew together the details here.
    Our view is that accountable corporate governance will 
underpin long-term creation of shareholder value. Because of 
the overturning of the SEC rule, which we and others supported, 
I have to say, it was important to be able to use Rule 14a-8 
to, if you like, have a do-it-yourself effort on something that 
is so important.
    We now have over 200 major companies where votes have been 
won to introduce proxy access. And I would like to applaud the 
leadership of New York City, which established a board 
accountability project.
    What is important here is an issue which once upon a time 
was viewed as rather innovative and perhaps on the sidelines of 
a minority interest is now winning significant support.
    Last year for example, over 60 percent of shareholders 
supported proxy access being introduced at Exxon, as an example 
of a company where we see a real potential for board 
refreshment. And now the owners of the company have the ability 
to engage in that dialog with the company.
    Mrs. Maloney. My time has expired. Thank you very much.
    Chairman Garrett. The gentlelady's time has expired.
    Mr. Huizenga is recognized for 5 minutes.
    Mr. Huizenga. Thank you, Mr. Chairman, and first I would 
like to welcome my governor, Governor Engler from Michigan. And 
it is good to see you here. I want to drill down a little bit 
on some recommendations that you have and explore a little bit 
about the conflict minerals and some of the pay ratio issues 
and those kind of things.
    I can't help but note my astonishment that we are talking 
about some of the issues that we are. I would have to note 
first and foremost, my mother has owned a business. My sister 
has owned a business. I have been involved in female-owned 
businesses for a long time and fully understand the benefits of 
diversity.
    The Wall Street Journal article recently talked about the 
benefits of having some gender diversity on boards and what 
that meant for the bottom line. I am a little confused though 
that gender is none of our business when people are using a 
bathroom, but suddenly it is very relevant if they are in the 
boardroom. So that seems an odd direction to go to me.
    But, Governor Engler, I do want to talk a little bit about 
the DRC and the conflict minerals provisions. That is something 
that my subcommittee, the Monetary Policy and Trade 
Subcommittee has dealt with it pretty extensively.
    And, you know, I believe that the rule really has not 
decreased violence or poverty in those nine countries 
surrounding the DRC, or I guess eight surrounding the DRC and 
nine with them.
    And Ms. Stuckey, you talk a little bit about some of those 
direct costs that are being incurred. And I wondered if you 
could just drill down a little bit on that, Governor Engler, 
and then maybe Ms. Stuckey, if you could follow up?
    Mr. Engler. I can respond to the question, Congressman, 
with perhaps more anecdotal than specific facts. I didn't come 
prepared to talk about that today. But what I have heard is the 
following.
    And we would be happy to try to follow up on this, but in 
some cases, the complexities of the supply chains of these 
major companies are such that literally decisions were made to 
try to avoid sourcing in that region completely.
    And so in that case, the idea was can we find any other 
alternative to bringing this into play.
    Mr. Huizenga. If I could interrupt one moment. The Minister 
of Mines from Rwanda sat right where you are and talked about 
this isn't about conflict-free, it is about Africa-free 
minerals. And that they are finding that as well, that people 
are leaving Africa and Central Africa to go find a different 
source for their minerals.
    Mr. Engler. That is consistent with what I have seen 
reported on, and as I said, have heard anecdotally. I can't 
document company by company or which even sector, but that has 
arisen.
    The second challenge that has been talked about is simply 
the sheer cost of trying to run down a supplier to a supplier, 
down that chain where the risk is such that it accelerates this 
trend to maybe even move off the continent someplace else 
because the risk of making a mistake is too great.
    And despite your best efforts, there might be a tier three 
supplier who suddenly has bought something in a market that you 
were not monitoring them. They were reporting to you but this 
is the challenge with this.
    And I think there is no one, certainly among the membership 
of the Business Roundtable who would knowingly do anything that 
would further violence in Africa. But at the same time, asking 
them to try to play this kind of a policing role is a very 
difficult challenge.
    Mr. Huizenga. Ms. Stuckey, do you mind?
    Ms. Stuckey. Yes, there is a new Tulane University and 
Accent Compliance Group study that says the cost of compliance 
with conflict minerals rule is now estimated to be about $710 
million.
    And when you read that against the GAO report from last 
month, you see that companies still, even at this cost, 
companies still can't tell whether they have minerals from the 
Congo or not.
    And I have heard the exact same things that Governor 
Engler's heard about, you know, people not going to Africa and, 
you know, there are issues with different mines all feeding 
into one smelter, and then there is the fact that you have to 
have it audited.
    You know, why would you take the risk that you are going to 
make a mistake, if this stuff--if you have to sign on the 
dotted line for it? Again, that is the problem with putting 
stuff in the 34 Act documents.
    Mr. Huizenga. Not to mention the fact that countries that 
were not big producers of many of these have now suddenly 
overnight become big producers where those minerals are coming 
out of even because the fall outside those nine defined 
countries.
    But with that, I know that my time has expired. And I 
appreciate the opportunity.
    Chairman Garrett. The gentleman's time has expired.
    The gentleman from California is now recognized for 5 
minutes.
    Mr. Sherman. Mr. Chairman, this has been an interesting 
week for corporate governance. We learned that one of the most 
respected institutions on Wall Street, countenanced 2 million 
bank fraud transactions committed by 5,300 people. And that the 
top corporate managers devised the system to put incentives and 
threats of firing on the lower ranking employees.
    That they maintained this system, knowing that there were 
at least 1,000 employees they had fired for fraud, and that 
they failed to monitor whether these accounts were actually 
authorized.
    And so in this week, when we find about 2 million criminal 
fraudulent transactions at just one big corporation, we are 
told that the only problem in corporate governance is that CEOs 
are annoyed having to talk about shareholder proposals.
    A real corporate governance hearing would not be one where 
we would consider a bill put forward by the chairman of the 
full committee that would eliminate the clawback provisions 
applicable to this case.
    Clearly those who left the company, or those who are 
staying with the company and got $100 million bonuses and 
incentive packages should be called to answer, but the SEC 
hasn't finalized the regulations.
    We are throwing around the term gadfly. And so I check with 
Jeff Foxworthy about what it means. If you care about conflict 
minerals, you might be a gadfly. If you don't want Iran to have 
a nuclear weapon, you might be a gadfly. If you get proxy 
advice rather than simply automatically signing whatever 
management wants you to sign, you might be a gadfly.
    If you fail to get your proposal adopted the first time, 
and have this stick-to-itivness to provide it to propose it 
again, you might be a gadfly. And if you believe that Wall 
Street values are not the sole determinant of human morality, 
you might be a gadfly.
    This is a hearing about whether we are going to have real 
capitalism, where the owners control the companies, or whether 
we are going to continue to have crony capitalism, which is so 
much more popular. The PACs that contribute to members of 
Congress are all controlled by the CEOs.
    And we have the crony capitalism that says whatever 
management wants to do they get to do, and the owners of the 
company have no right to stop them. Now, part of the attack on 
capitalism is to tell investors that it is virtually illegal 
for them to consider anything other than earnings per share in 
making an investment.
    That if they choose to care about not investing in Iran, 
that they are prohibited from doing so and they won't be given 
the information. I would say that it is the SEC's job to 
protect investors and that means all investors, including those 
who care about Iran's nuclear programs, about conflict 
minerals, about the money that is going from corporate 
treasuries to this end around our campaign finance laws.
    Investors who are deprived of the right to know basically 
have their money stole--well, taken from them. They can't make 
their own investment decisions.
    Ms. Simpson, we are here to protect shareholder value. Is 
it true that your organization controls--is the shareholder for 
far more shares than all the rest of the panelists combined?
    Does PERS have more than Mr. Copland's organization? How 
many billion are we talking about?
    Ms. Simpson. CalPERS is responsible for over $300 billion 
as a fiduciary for--
    Mr. Sherman. Okay. If anyone on the panel controls over 
$100 billion, can you please raise--no hands are going up. So 
we are here to protect shareholder value, but we only have one 
major shareholding organization testifying.
    Mr. Engler, you proposed that the $2,000 figure was too 
small. But then you said, it should be a longer holding period 
than 1 year.
    Our tax laws define long-term investor sometimes as 6 
months, at best 1 year. If we are going to say, that you are 
not a long-term investor for purposes of the proxy statement, 
shouldn't we take away your capital gains allowance as well on 
the same basis?
    Mr. Engler. Well, let me be clear. You are making some 
headway in your effort to regulate corporations. In 2000, we 
had 6,000 of them and you have it down to 4500 now. So there 
are fewer of these companies to be worrying about that are 
incorporated. I think that--
    Mr. Sherman. Mr. Engler, are you talking about publicly 
traded corporations?
    Mr. Engler. Publicly traded, yes.
    Mr. Sherman. Okay, so that you--
    Mr. Engler. That is what we are talking about I think, 
those regulated by the SEC, and there is a diminishing number 
of those, and I would submit that some of the regulatory 
overkill has something to do with that.
    Mr. Sherman. And then that part of it also is the corporate 
merger mania that occurs on Wall Street where one of those 
corporations buys another one of those corporations.
    Mr. Engler. And why do they do that?
    Mr. Sherman. Then we have a lot of private equities making 
a lot of money.
    Mr. Engler. Well, I--
    Mr. Sherman. Anyway, are you holding out for more than a 1-
year period of time that somebody has to invest in a company in 
order to put forward a proxy proposal?
    Mr. Engler. I want to restore some balance to a process, 
and I think $2,000 ownership share, held for 1 year--
    Mr. Sherman. I am asking about the length of time.
    Mr. Engler. --is not enough.
    Mr. Sherman. Length of time. Are you arguing--I know you 
are arguing for more $2,000.
    Mr. Engler. Yes.
    Mr. Sherman. Are you arguing for longer than 1 year?
    Mr. Engler. I would personally make that a little bit 
longer, yes.
    Mr. Sherman. If we do the tax code as well, I will be with 
you.
    I yield back.
    Chairman Garrett. The gentleman yields back.
    Mr. Hultgren is recognized for--
    Mr. Hultgren. Thank you, chairman. Thank you all for being 
here. I have the privilege of representing Illinois, just west 
of Chicago. We have a number of outstanding public companies 
headquartered in Illinois. John Deere is one of the best 
respected brands in the country. It also employs thousands of 
people in Illinois and across the country.
    Farmers in my district absolutely depend on their products 
and my constituents own shares in the company and depend on its 
success for their retirement security.
    There was recently a shareholder proposal requesting the 
company generate a plan for it to reach net zero greenhouse gas 
emission status within the next 15 years.
    While I agree companies should be striving towards energy 
efficiency, it doesn't see to make sense that someone with an 
incredibly small stake in the company should be able to have 
such a powerful influence over its affairs. Some would describe 
this as tyranny of the minority.
    Governor Engler, in your testimony, you discussed the need 
for modernizing the current shareholder proposal process due to 
it being hijacked by a very small minority. I wondered, could 
you talk about the cost the current process imposes on public 
companies?
    Mr. Engler. Congressman, yes. I mean, we think the cost is 
substantial and it is worsened by the fact that even after that 
proposal with those minimal requirements is presented once and 
voted down, it could be resubmitted again the next year and the 
year after that. So these costs are accretive over time.
    We do think that looking at the company's financial 
reports, a company's performance and the material information 
is the way investors ought to make a decision on whether they 
own or not own a company.
    You know, this is a big challenge. You know, in Illinois 
with the public pension funds what kind of trouble they are in 
with the investments they have made and their performance isn't 
terrific.
    We would like to see, I think obviously, more growth in 
America so that we have an economic performance that is much 
greater than we have today. But we would also like to see U.S.-
headquartered companies regulated by the SEC being able to 
perform better, with better results. And I don't have a 
specific dollar amount. It varies company by company.
    But as my colleague, Mr. Copland testified, when you are 
down to 0.00001 percent, you know, it is a pretty de minimis 
investment to create cost for a company and then those costs 
are borne by the investors.
    Mr. Hultgren. Yes, I would like to get into that a little 
bit just with the $2,000 ownership threshold for submitting a 
shareholder proposal. Do you know when that was originally put 
into place? From your testimony, it doesn't sound like you 
think this is really a reasonable threshold anymore.
    For example, John Deere currently has a market cap of about 
$26 billion, so a $2,000 investment would be about 0.000008 
percent stake, and yet being able to have that kind of sway. 
So--
    Mr. Engler. Wait, I can't answer, but Ms. Stuckey can.
    Mr. Hultgren. Okay.
    Ms. Stuckey?
    Ms. Stuckey. Hi--
    Mr. Hultgren. Hey.
    Ms. Stuckey. --1998 is when it went up from $1,000 to 
$2,000.
    Mr. Hultgren. Okay.
    Ms. Stuckey. I guess that $1,000 was probably the original 
number. And let me just--on a number for the cost of 
shareholder proposals just direct cost, $90 million a year.
    Mr. Hultgren. Wow.
    Ms. Stuckey. Doesn't sound like a lot, but it doesn't 
include the board's time and the other people in the 
corporation's time that they have to deal with it.
    Mr. Hultgren. Okay. We talked a little bit about the 1-year 
holding period requirement for submitting a proposal. Do you 
think that 1 year is sufficient?
    Governor Engler, I will address this to you.
    Mr. Engler. Sure.
    Mr. Hultgren. Are we certain that these are investors who 
are interested in the long-term growth of the company? Again, 
if they only hold it for a year, do we have that long-term 
commitment?
    Mr. Engler. Well, I mean, I know we previously had an 
effort to kind of link this to tax law, but I think we are 
really talking about, you know, tax policy is tax policy. Right 
now we are in a big fight with the E.U. about some of their, 
what I think are wrong tax policy. But in this case, we are 
talking about management of a company, which, you know, is over 
many years.
    And we know that companies are bought and sold. Companies 
emerge and some become obsolete and go away. But for the longer 
term interest, I would think that a shareholder would want to--
and we would want investors to be around for more than 360 
days. And that is what we are saying.
    We are not here to--we are actually working on a paper to 
kind of try to be even more granular about what we think might 
be a better idea. What we are saying, what we have today is 
clearly inadequate.
    Mr. Hultgren. Let me jump to one thing real quick. I just 
have a little bit left. Retirement security is an incredibly 
important issue for my constituents, as you have mentioned. I 
have championed the Encouraging Employee Ownership Act in the 
Financial Services Committee.
    And also recently co-sponsored the Empowering Employees 
Through Stock Ownership Act, which allows an employee to elect 
to defer income attributable to certain stock transferred to 
the employee by an employer.
    What I find really frustrating with some of the shareholder 
proposals is that they are clearly politically motivated 
instead of focusing on the company's growth. I wonder what this 
means for my constituents who depend on sound investments, 
especially if they are depending on their pension plan to 
uphold its fiduciary responsibilities.
    Quickly, Mr. Copland, can you give me a sense of how many 
shareholder proposals are submitted each year that don't 
contribute to beneficial information for investors, and instead 
just impose unnecessary costs on these investors?
    Mr. Copland. Well, if we are just focusing on the proposals 
that involve social or policy issues, this year that was 50 
percent, half of all proposals.
    And I would also like to refer the committee, as I 
mentioned before what we have included in the record is our 
study by Professor Tracie Woidtke, which shows specifically for 
public employee pension plans, that those public employee 
pension plans that have been pushing those social proposals 
through shareholder activism, it has associated negatively with 
firm value.
    So it is something that I would worry about as a 
policymaker there in Illinois, or in any other state.
    Mr. Hultgren. My time has long since expired. I yield back, 
but may follow up with written questions, if that is all right, 
just to get some more information from y'all. Thank you very 
much for your time. Appreciate it.
    Chairman, I yield back.
    Chairman Garrett. You are on, Mr. Scott?
    Mr. Scott. Yes, sir, thank you very much, Mr. Chairman. I 
would like to address this to the entire panel and maybe get 
your thoughts on this because, I think it is very important and 
deals with Section 13-F in the reporting requirements. And a 
recent petition to the SEC uncovered what I personally believe 
is a shortfall in today's disclosure requirements for 
institutional investors.
    And that is this. As written today, Section 13-F requires 
reporting requirements in the Securities Exchange Act. It 
requires that institutional investors report their long 
positions in companies within 45 days after each quarter. But 
not included in that disclosure are the short positions that 
they take.
    And we tried in Dodd-Frank to fix this by giving the SEC 
authority to require short position reporting. But the deadline 
for these reports was once every month. So you see, there is a 
mismatch here, one is 45 days, the other is 30 days. So I think 
it would be helpful for us to know from each of you, are you 
aware of this discrepancy in the first place?
    And then secondly, what is the impact of this disclosure 
and the inconsistency of it, and what will this impact be on 
the markets--45 days, 30 days.
    Ms. Stuckey. I can start if you want?
    Mr. Scott. Yes, Ms. Stuckey.
    Ms. Stuckey. And maybe you will--13-F is part of what is 
called the Beneficial Ownership Rules. It has 13-D, as well, 
which is a 10-day rule. We think that these rules, again, as an 
example of, they are outdated. The timeframes haven't been 
brought into the, you know, modern era.
    The idea about 45 days to put in your long positions I 
think was around because you needed the time to actually 
produce those numbers. Now those numbers can be produced in a 
day. So we don't need the 45 days.
    The short positions I am not as familiar with, but I will 
tell you what I do know, that the short positions aren't 
disclosed at all except in the aggregate amount by the 
exchanges. So that might be the 30 days you are talking about.
    We believe that the 13-F long positions are--that those 
timeframes need to be way shortened, and then the short 
position should match, whatever that is.
    Just to leave to you with this, corporate directors and 
officers have to disclose their holdings in 2 days, their 
purchase and sales in 2 days. Companies have to disclose what 
they do, anything that is of interest on an 8-K in 4 business 
days.
    Activist hedge funds who seek to buy up a lot of shares and 
then go after companies have 10 days, that is 13-D, and but 
investment managers have 45 days. So it doesn't quite seem 
fair. We think this needs to be looked at and needs to be--
    Mr. Scott. Yes. Okay. Yes, anyone else here?
    Ms. Simpson. Yes, thank you for the question. I think this 
is an excellent example of where the rules have completely been 
outdated by events. And we have highlighted in Regulation S-K 
disclosure the importance of making good use of technology. We 
are not arguing to go back to previous rules. We want to look 
ahead.
    I think the other emphasis for us is we want to ensure that 
the disclosure regime favors the long-term, and, you know, we 
have said elsewhere that the rules are designed for 
shareholders. But in reality, we have a regime where you have 
owners, you have traders and you have raiders.
    And on frequent occasion, CalPERS has stepped forwards to 
stand up for and run proxy campaigns against short-term 
activists to protect companies. We have done this at Apple with 
Carl Icahn. We have done it at DuPont with Trian. And we think 
that a lot of the short-term trading and activist pressure on 
companies is really detracting attention in companies from the 
long term.
    Short-term executive pay has just thrown fuel onto the 
fire. But really this disclosure regime does need trimming up. 
It is a piece of unfinished business from Dodd-Frank. And 
another good reason why the SEC needs to have the money it 
needs to complete the job it has been given.
    Mr. Scott. So do you see this as something that the SEC can 
do with how we move forward on this? Or is there something 
additional that this committee should be looking at to fix this 
situation, number one?
    Ms. Stuckey. There are two petitions for rulemaking in 
right now. My belief is that they, SEC, can act on them if they 
want.
    Mr. Scott. Good. Thank you.
    Chairman Garrett. Thank you.
    The gentleman from Arizona is recognized for 5 minutes.
    Mr. Schweikert. Thank you, Mr. Chairman. Part of this is my 
own curiosity, so some of this is the education of David. Is it 
Ms. Simpson? You are CalPERS, correct? Yes? I have actually had 
a curiosity, particularly haven't been around a number of the 
public pension systems.
    At least in Arizona, we had always had the discussion that, 
okay, return to principal and maximizing safe yield was, you 
know, our sort of fiduciary, and sort of moral, ethical 
obligation to our current members and our retirees that--and 
yet, I know around the country, we have had a number of public 
pension systems that have that sort of specialized sort of 
fiduciary relationship with their participants.
    And parts of their investment committee have gone on 
certain tangents. When you view the world and those special 
relationships and special requirements you have to maximize 
safety and maximize yield, don't you see sort of a conflict of 
chasing what may be perceived as a good cause, away from your 
obligation?
    Ms. Simpson. Thank you for the question. You are 
highlighting the single most important issue for all pension 
funds and that is fiduciary duty. CalPERS fiduciary duty is set 
out in the California constitution.
    Mr. Schweikert. Yes.
    Ms. Simpson. So it cannot be overwritten by special 
initiatives, proposals or the legislature.
    Mr. Schweikert. Well, but exactly to that point, because I 
don't mean to use CalPERS because I don't know enough about 
CalPERS. But let's say I have a system that is only funded the 
70 percent, so I have a substantial shortfall in my actuarial 
soundness. And sometimes when an investment board gets 
together, we often appoint people who may represent certain 
union groups or political groups or professional staff.
    And I get someone who has a, shall we say, a bug under the 
bonnet over certain social or societal issues. What happens 
when that starts becoming, either being woven into proxy 
fights, board seats, investment policy? How do you avoid that?
    Ms. Simpson. It is avoided by having the fiduciary set out 
at the highest law of the land. There is no room in California 
law for the situation that you just described to take place.
    Mr. Schweikert. Okay. So in that sort of situation--so 
would you ever consider that maybe those who is in financial 
services should consider maybe even a Federal additional 
shoring up of that fiduciary? That if we ever saw a 
particularly public pension system that actually had a 
shortfall, so they said, that if they were to violate that 
safety, soundness, yield sort of principle, that there might be 
penalties to be paid.
    I mean would that be a rational approach for us just to 
make sure that the fidelity to the fiduciary, if you can say it 
that way, is upheld?
    Ms. Simpson. My thought here is that you already have that. 
California constitution on fiduciary duty--
    Mr. Schweikert. No, no. I am thinking sort of across the 
land.
    Ms. Simpson. Then you are into a legal discussion about 
Federal versus state law rights. I do want to repeat, and I 
don't think you were here, sir. CalPERS went into the financial 
crisis over funded. We lost $70 billion.
    Mr. Schweikert. Well, we are actually--I know you say 
that--
    Ms. Simpson. And--
    Mr. Schweikert. --but I actually have a couple things in 
front of me that I should talk about there were some actuarial 
issues. Now, it wasn't actually CalPERS. It was your political, 
you know, some things done in the 1980s, some things done in 
the 1990s, some participation that would have done in your 
retirement curve. But that--
    Ms. Simpson. Yes, you can find all of that on our website. 
We are very transparent.
    Mr. Schweikert. Yes. No, no. And I actually love your 
website. And so--
    Ms. Simpson. Thank you.
    Mr. Schweikert. Okay, and I had two other questions, but 
Mr. Copland, you had something you wanted to share--
    Mr. Copland. Yes. Well, I just wanted to--
    Mr. Schweikert. --but I beg you to do it quickly.
    Mr. Copland. --point out to the committee that I also co-
authored a report looking at this specific pension fund issue 
in February of this year with my Manhattan Institute colleague, 
Steve Malanga. It is noted in footnote 106 on page 30 of my 
written testimony. So you can check it out if you--
    Mr. Schweikert. I can't believe I missed that footnote.
    Mr. Copland. But it is--in fact, CalPERS has at least 111 
directives on environmental social governance, ESG issues. And 
in fact, in 2000, the board of CalPERS decided to invest in a 
lot of state and local real estate, doubled the exposure in 
real estate in the portfolio that CalPERS held over the next 6 
years.
    And that is one reason why their real estate portfolio 
dropped in half by 2009.
    Mr. Schweikert. Well--
    Mr. Copland. So I think these are real important things. 
And we flesh out a lot of the principles for governing.
    Mr. Schweikert. Forgive me because we are done, and I am 
going to steal another 15 seconds. Look, I always want to make 
a little difference between what are investment decisions and 
what are sort of societal passions of those who end up on an 
investment committee.
    You and I can argue about often where we place money, was 
it smart, did it meet the safety and soundness? This here sort 
of violates the concept of I need to put safety and soundness 
and yield.
    And if there is a second round, Ms. Stuckey, I have a 
fascination with also why we don't do a better job sort of 
using the Internet, electronic disclosure, harmonization of 
timelines, even down to, okay, set back those thresholds of 
something for a proxy fight, but have the participation of that 
be requested through a website.
    So you may be able to raise the thresholds, but it is a 
clear, cleaner, faster, easier way to get there and less 
costly.
    I yield back, Mr. Chairman. Thank you.
    Chairman Garrett. Yes, the gentleman yields back.
    Mr. Ellison is now recognized for 5 minutes.
    Mr. Ellison. I thank the chairman and the ranking member. 
You know, we have been talking quite a bit about corporate 
governance all week long, and I don't think anybody in America 
missed the situation in the Senate where John Stumpf, CEO of 
Wells Fargo was questioned and in the banking hearing yesterday 
by every senator.
    The CEO of Wells Fargo created a corporate culture that 
demanded low level bankers, folks making 12 to 13 bucks an hour 
to sell customers eight different products. You know, I guess I 
am not surprised, but it obviously led to a very difficult 
situation, 5,300 people selling over, making over 2 million 
fraudulent transactions.
    So to me, you know, I think that the real question should 
be how do we promote good corporate governance, protect the 
public? I guess I don't accept that the only legitimate 
corporate governance issues are accessing capital and providing 
shareholder value.
    You know, I think what some people might call, you know, 
their passions, I think there are a lot of other legitimate 
stakeholders whose interests should be brought into 
consideration in terms of corporate governance. Customers, 
community members, employees, the environment and, of course, 
shareholders, I think are all legitimate conversations and 
should be part of the overall question.
    You know, in Sarbanes-Oxley and in Dodd-Frank Wall Street 
Reform and Consumer Protection Act, we clarified what good 
corporate citizenship means. Obviously, it should not require 
staffers to open 2 million fraudulent accounts in order to earn 
a living wage.
    But it should be more than that. And when executives enable 
fraud there should be consequences. One of those consequences 
should be clawbacks of executive compensation. And we know who 
the people who would be responsible.
    And whether or not they admit to the responsibility that 
they bear in these over 2 million fraudulent transactions are 
not, when you are running the show, you can hardly deny that 
you were deeply implicated in it. And there should be some 
level of accountability.
    And I think that it is this single-minded pursuit of just 
shareholder value that probably leads to problems like this. 
And so I think it is good that we open up a broader lens.
    So, let me just ask a few questions. Ms. Simpson, does 
CalPERS support Dodd-Frank's clawback requirement?
    Ms. Simpson. Thank you, sir. We support the clawback 
provision in full. And prior to that there was a longstanding 
policy of CalPERS to ask companies to have a clawback provision 
because if someone is paid money that they have not earned, 
then you are transferring funds from the shareowners. And we 
have a sacred duty, a fiduciary duty to our members.
    And if money is being wasted, or distributed to those who 
did not earn it, it is surely a matter of common sense, common 
economics. It is sad in a way that we have to request a rule to 
put something that obvious into effect.
    But it is a good example of where Dodd-Frank did help to 
strengthen the corporate governance framework. And it is only a 
matter of regret that the SEC hasn't had the time and the 
funding to complete the job.
    Mr. Ellison. You know, also Ms. Simpson, I would like to 
get your opinion, can you describe the importance of say-on-pay 
provisions? You know, there is a provision that would require 
companies to disclose a ratio of the compensation of its chief 
executive officer to the median compensation of employees.
    I guess one of the witnesses didn't think this was a 
meritorious idea. But I wonder if you would offer your views on 
what you think about this particular provision?
    Ms. Simpson. We found say-on-pay to be extremely beneficial 
because it has gotten companies' attention. I would say in 
CalPERS' experience in the 10,000 companies we invest in, as 
say-on-pay has become introduced into different markets, 
companies want to answer your phone call, because there is now 
a vote on something of great importance to the executives. So 
we have their attention. That is very important.
    Secondly, what it has done is give us a halfway step if we 
are unhappy with the board's decisions. I think that many 
investors worry if pay is going wrong, is this something where 
you should just vote against board members, the compensation 
committee?
    So I think many investors have found it is a very important 
signal. In other words, you can say no, but you can say it in a 
safe way. We typically have voted it against 20 percent of the 
proposals that have come our way.
    There is much in excess actually of the proxy advisory 
firms that were being discussed earlier as though they lead the 
investors by the nose. And I would say quite the reverse, so a 
good example of that.
    And also we have seen improvement as a result of investors' 
greater oversight, for example, lengthening of performance 
periods for pay plans. And that really gets at the heart of a 
real challenge in the capital markets, which is getting 
incentives aligned with the long term so that executives are 
thinking long term in the same way that we the owners are.
    Mr. Ellison. Thank you, Ms. Simpson.
    Chairman Garrett. Thank you. The gentleman yields back.
    Mr. Hill is recognized now for 5 minutes.
    Mr. Hill. I thank the chairman, and I thank the panel for 
being here this afternoon. Good discussion so far and one that 
certainly the committee's been interested in for the past year. 
I do want to start out talking about the proxy firms, ISS and 
Glass Lewis. And I haven't heard much discussion about them 
since I have been in the room.
    So I would like to have the panel comment on those. The 
question would be what are the feelings about them serving in 
this capacity as sort of the proxy advisor and vote 
recommender, and yet they sell services to the companies that 
they oversee.
    We will start with you Governor Engler?
    Mr. Engler. We stated on the record and have written to the 
SEC relative to our belief that there are conflicts that exist 
when you are on both sides of the transaction, where you are on 
one hand making recommendations relative to different aspects 
of corporate governance.
    And at the same time offering to sell to the company a 
strategy for them to solve those problems and then get their 
score higher. So we have encouraged some of the work that has 
been done, both in Congress and some of the work that is under 
way at the SEC to begin to address this.
    Mr. Hill. Is your problem with the fact that it is just on 
paper an obvious sort of conflict, or do you think that they 
are--you don't agree with the advice?
    Mr. Engler. Well, sometimes the advice is based on 
incomplete, inaccurate information. And one of the remedies 
that we have suggested is that before the proxy firms go out, 
and sometimes they go out very late in the process, and there 
is no time for the company to correct the record, that there 
ought to be, if you will, a draft report that at least the 
company has an opportunity to comment on and say, you are 
factually wrong.
    There have been these cases where it was discovered and 
corrected, but there have been other cases where it simply came 
too late and it was not able to be corrected.
    Mr. Hill. Yes. Ms. Simpson--I will return to you Mr. 
Copland, but let me ask Ms. Simpson about that, just 
representing from the pension side, your comments. You are 
certainly big enough, if you wanted to, you could not rely on 
proxy advisory firms. So what is your view on that?
    Ms. Simpson. Thank you for the question. We don't rely on 
proxy firms. As you rightly say, CalPERS has a very large, 
well-qualified staff. We engage with typically over 1,000 
companies a year directly talking, visiting them, them visiting 
us. And our primary source of information is the company. And 
that is extremely important to us.
    However, we do find it useful, as we do with all of our 
financial decisions, to have a wide range of different 
information. And you can see from CalPERS' proxy voting record 
that it doesn't reflect the advice of the proxy voting firms 
that we use.
    But on any investment decision we buy data, we buy 
information, Bloomberg, MSCI, Standard & Poor's, Moody's, a 
wide range of financial analysis. And we see this as helpful as 
going into the mix.
    Mr. Hill. What--
    Ms. Simpson. So we make our own voting decisions. That is 
essential.
    Mr. Hill. Yes. You can do that, and I think that is 
terrific, but a lot of people, like the rest of us, you know, 
can't. And so I am an economic investor. I am interested in 
maximizing the value long term of my retirement assets, for 
example. And so I, as a personal investor, I might not put a 
big premium on ESG-type proposals, personally, let us say.
    But don't I have to live with that because the 401(k) or 
the mutual fund companies that I use a lot of them, are using 
one of these two companies? So doesn't it take away a right 
maybe of an individual investor?
    Mr. Copland, what do you think on that?
    Mr. Copland. Yes, I do think that is a significant 
consideration. And I have done a fair amount of research on 
proxy advisory firms. It is available in Section--I think it is 
Section 4--no, Section 5 of my written testimony. And ISS has a 
hard job, as does Glass Lewis. I want to make that clear at the 
outset.
    I mean by its own estimation, it helps 1,600 clients 
execute 8.5 million ballots, representing more than 2 trillion 
shares annually. And to do that, it has an annual budget of 
about $120 million, as of 2 years ago when it was owned by a 
publicly traded company, with about 700 employees. So that is a 
very tricky job to execute.
    The problem is, as I stated before, but the problem is 
there is a misalignment between what ISS does and what the 
median shareholder wants. And ISS, nevertheless, has a 
significant impact on the percentage vote that you see on--
because of smaller institutional investors. Big pension funds 
don't have to compete for capital. Mutual funds out there in 
the market do.
    And so they are doing everything possible to minimize their 
cost structure. What that means is being a more efficient voter 
isn't a smart strategy for them. A big company, like a Vanguard 
or a Fidelity can do it, but smaller mutual funds aren't going 
to do it. They are going to rely on the proxy advisor.
    And what that means is based on our econometric analysis, 
controlling for other factors, ISS acts as effectively a 15 
percent owner of the Fortune 250 when it comes to shareholder 
proposal voting. That is an enormous amount of influence that 
is placed into play.
    Now, it is not necessarily going to tip the ballots over. 
These social policy proposals that ISS is more likely to 
support, they are eight times more likely to support a 
shareholder proposal than the median investor is. That is what 
our research finds.
    So what it means though, is that ISS can be subject to 
capture by the institutional investors that have an interest in 
certain issues, be they social investing funds or be they 
public pension funds that are often led by, as New York's funds 
are, partisan elected officials.
    And in doing so, they can move ISS' positions away from 
that of the median shareholder. And precisely because of these 
very low resubmission thresholds that the governor and Darla 
talked about, it means ISS can effectively keep an item on the 
ballot indefinitely, even when 88 percent of shareholders are 
voting against it every year.
    Chairman Garrett. The gentleman's time has expired.
    I think we have been around one time and without objection 
we go around a second time as we wait. So I guess it is, as we 
go back and forth.
    Mr. Sherman. Oh, good.
    Chairman Garrett. I will go.
    Mr. Sherman. Ms. Simpson, obviously you make your own 
voting decisions--
    Chairman Garrett. Never mind. I will restart the clock. I 
was going to make my comment, but--
    Mr. Sherman. Okay. Not everyone has your large a staff. 
Would you prefer your fellow voters and shareholders get 
professional advice or just rubber-stamp whatever management 
tells them?
    Ms. Simpson. Independent advice is always a good idea. The 
interests of shareowners and management, they are usually 
pretty well aligned. You know, ultimately we are on the same 
side.
    Mr. Sherman. Yes.
    Ms. Simpson. We want companies to do well. We want 
prosperity. We want good returns. Unfortunately--
    Mr. Sherman. Okay. I represent a lot of your members. I 
couldn't agree more.
    Ms. Simpson. But unfortunately there are areas of conflict. 
Executive compensation is a great idea. And for a small 
investor to look at that executive compensation disclosure, so 
complicated, and working out how it has changed over time, how 
to compare it with other companies, how to relate it to the 
financial performance.
    Gee whiz, you need a Ph.D. in something to work that out. 
So I think that in the free flow of information in the 
markets--
    Mr. Sherman. Would you feel better as a major owner of 
Wells Fargo if they had a good clawback procedure that would 
make sure that any executive who perhaps left the company 
recently with over $100 million would have their compensation 
adjusted for what was really happening?
    Ms. Simpson. CalPERS has had a policy on clawbacks in favor 
of clawbacks, which is simply unearned rewards, which come out 
of shareowner funds. We have had that policy before Dodd-Frank.
    We will continue to have it and hope the SEC rulemaking is 
possible and, you know, it will all be finished and wrapped up 
soon. But it is an essential--
    Mr. Sherman. Yes.
    Ms. Simpson. --it is an essential principle of fairness, of 
common sense, of alignment of interests.
    Mr. Sherman. I would point out if Dodd-Frank had been 
promptly implemented, Wells Fargo executives might have the 
right incentives and Wells Fargo might have 2 million fewer 
accounts. But it has taken the SEC a long time. We hope they 
get there.
    I will also point out that if the chairman's legislation is 
passed, then all future corporations will not have the 
clawbacks that would have been relevant to Wells Fargo.
    Now, I have heard an estimate of $90 million as the cost of 
some level of shareholder democracy. One of the witnesses said 
that that was the cost of dealing with these proposals, didn't 
include board member time.
    How much shareholder value is lost because of crony 
capitalism, where boards prevent mergers, acquisitions that 
would have increased shareholder value but were not in the 
interest of the board members and especially not in the 
interest of the management that kind of selected them?
    Do you think that if every board decision on whether to 
agree to a merger was made in the shareholder interest that 
shareholders might be enriched by an amount, say, over $90 
million?
    Ms. Simpson. Looking at the numbers just on Wells Fargo, we 
have about $1 billion in that company, equity and debt. And 
then we have lost--
    Mr. Sherman. So you have lost--
    Ms. Simpson. --I would have to say about 11 percent.
    Mr. Sherman. Yes.
    Ms. Simpson. So something over $90 million, just in the 
one--
    Mr. Sherman. Just on that--
    Ms. Simpson. --reaction throughout the market that--
    Mr. Sherman. --one company just from one--
    Ms. Simpson. Yes.
    Mr. Sherman. --series of 2 million decisions that were not 
in the public interest. And there can, significant--you know, 
corporations choose to incorporate under the laws of whatever 
state does the best job of protecting management and furthering 
the goals of crony capitalism.
    Would CalPERS be in a better position if the corporation 
codes of all the states had the same level of shareholder 
protection that California does? At least as applicable to the 
two or--you know, the major publicly traded corporations?
    Ms. Simpson. Well, two of the shareowner rights that we 
think are most important are majority voting. That is the 
ability to vote no, as well as yes, on a directors' election, 
and proxy access, which gives us, the owners, the right to put 
forward candidates on to the ballot.
    And I am going to have to ask my learned colleagues. There 
are one or two states which have those provisions, but the main 
states where incorporation is popular, Delaware, California and 
more actually do not have that in the default--
    Mr. Sherman. Delaware is out there advertising, in effect, 
we will protect management. We will defeat efforts to enhance 
shareholder value. Incorporate here. And needless to say, that 
has caught the attention of management. We ought to have 
shareholder protections that are national in nature. I see the 
governor would like to comment, but I think I am--
    Chairman Garrett. Well, since we are already going over 
here a little bit.
    Mr. Engler. Well, I am amused at these questions and the 
aspersions being cast here that there are these boards of 
directors running amok, somehow doing something that is in a 
breach of their fiduciary duty. And I am also somewhat assumed 
at citing CalPERS. You have mentioned how many constituents. I 
am looking at the Bloomberg report.
    CalPERS last year earned a rousing 0.6 return and Ted 
Eliopoulos, the chief investment officer, said, you know, that 
is below the assumed rate of 7.5 percent. He said, ``That's a 
significant policy issue.''
    If I were worried about somebody's dad, I would be worried 
about somebody who is hoping to get a pension from CalPERS with 
that puny rate of return. And maybe it is crony capitalism that 
is doing it. Maybe it is investment strategy. I don't know, 
but--
    Mr. Sherman. Good Governor, not everyone can make a 7.5 
percent return in this particular economy.
    Mr. Engler. Zero point six.
    Mr. Sherman. And many, many investors lost a lot of money, 
last year. And she just lost--or rather the organization she 
represents, just lost hundreds of millions of dollars because 
of the bad corporate governance that we would like to see 
ended, by enforcing and passing the regulations for clawback, 
rather than supporting legislation that would eliminate this.
    Mr. Engler. I don't think that is factually accurate and 
is--
    Mr. Sherman. You don't think she has lost hundreds of 
millions of dollars on Wells Fargo stock?
    Mr. Engler. Nope.
    Mr. Sherman. As the stock price has--
    Ms. Simpson. I would be happy to--
    Mr. Engler. As of what date?
    Ms. Simpson. --share the numbers. No, it is that--
    Mr. Engler. As of when?
    Ms. Simpson. I am happy to follow up with the detail, and 
we can--
    Mr. Sherman. Anyone who owned a billion dollars, that level 
of corporate stock has lost an awful lot of money as the stock 
has declined by 10 percent--as we have learned that management 
can't prevent 2 million frauds.
    Mr. Engler. They did fire 5,300 employees that they found 
and that--
    Mr. Sherman. That they hired--
    Chairman Garrett. The gentleman's time--we are going down a 
different road here from corporate governance here. So--
    Mr. Sherman. Thank you.
    Chairman Garrett. So the gentleman's time has expired.
    I recognize myself for 5 minutes. And I wasn't going to go 
down this road, but Ms. Simpson, one of the previous questions 
was with regard to clawback provisions. And I am sort of 
growing in this field as far as clawback provisions.
    Because you look back at 2008 and the crisis of 2008, and 
you look at the larger financial institutions. You look at the 
management of those institutions at the time. And the collapse 
that occurred in them.
    You looked at the banking and financial institutions that 
were then bailed out by all of us, by the American taxpayers. 
But there was never any clawback in those cases, was there?
    Ms. Simpson. Yes--
    Chairman Garrett. Not to speak of.
    Ms. Simpson. No, we had a policy throughout those periods. 
And it was dubbed pay for failure.
    But Darla has a comment about Sarbanes-Oxley.
    Ms. Stuckey. Sarbanes-Oxley has a clawback provision for 
the financial institutions, and most all of the big finance--
well, all the big financial institutions I can almost assure 
you have clawback provisions.
    Chairman Garrett. But we saw a number of the CEOs and the 
COOs getting fairly large salaries during that time and 
afterwards. And we saw those companies then basically fail or 
be wrapped around by the government. And I don't remember that 
I saw them, any clawbacks from their salaries. And then we also 
saw--
    Ms. Stuckey. What the reason why you might not have seen 
it, is because they don't always publish who they take money 
back from, and--
    Chairman Garrett. Well, I have asked some of them 
actually--
    Ms. Stuckey. Okay.
    Chairman Garrett. --these former COOs whether they were 
clawed back and they said no. And we also saw another thing, a 
phenomena that was called--what was it called, bureaucratic 
parachutes for some of these companies who then when their COOs 
or what have you, leave the companies and they basically get 
paid to go into government.
    But, heck, we see that our own secretary of Treasury, don't 
we? That they get paid lavish salaries. The company fails. And 
there are absolutely no clawbacks.
    Mr. Copland?
    Mr. Copland. Well, yes, I just want to shed some empirical 
light on this, because you have a number of shareholder 
proposals that involve executive claw backs or what are so-
called golden parachutes that really change in control or 
government service types of provisions. They almost universally 
are voted down by a majority of shareholders.
    Part of the reason for that is I think that there is a 
concern, in terms of recruiting the right talent about that. 
Things like government service are things that a company's 
shareholders may want to have.
    And what they are usually are involving are situations 
where they have options that haven't vested and they will 
accelerate those so there is no conflict of interest for the 
executive when entering the government. But I just want to 
emphasize that--
    Chairman Garrett. Well, let me finish--
    Mr. Copland. --by and large shareholders vote against those 
proposals.
    Chairman Garrett. Let me just go to the Governor Engler 
here. And some--one of my opening comments, let us talk back 
again. This is the no-action letters by the SEC. Right? You saw 
them back in Cracker Barrel in 1997.
    I made reference to the one by Mary Jo White back in 2015, 
where she reversed course on that. Can you spend 30 seconds on 
that, of the process that the SEC currently uses. The reversal 
process that the SEC currently has engaged in.
    And so does the current no-action process, is it an 
effective method that they are using right now? Or is this 
creating uncertainty, as I guess they call it, a decentralized 
issue by issue process that is going on right now in the 
market?
    Mr. Engler. It certainly is issue by issue, but I would say 
it is the uncertainty is what is the problem in the--I am 
looking for my written--oh, there we go. Thank you. It was in 
the broader testimony, I didn't get a chance to speak this, but 
we had suggested revisions to the no-action letter process.
    And we said since it is done at the staff level, it kind 
of--we were arguing maybe it ought to come up to the actual 
appointees, the commissioners themselves, because they actually 
bear the ultimately responsibility. And when you get it down at 
the staff level, issue by issue, situation by situation, it 
leads to inconsistent guidance. And that is the difficulty.
    Chairman Garrett. And I keep going off of the previous 
comment prior to this as for--Mr. Copland, you were making 
reference, and I am trying to--I can't get your exact words, 
but I will throw it out and you can bring me back to it.
    So you are saying, some of these institutions or actually 
investment firms are, you know, politicized, if you say, as far 
as who is actually running them. They are politicians, and I 
don't think that was your exact words. Can you talk again about 
that? Because as their returns, their involvement, their 
position on the issues versus what you call the average?
    Mr. Copland. Yes, what Professor Woidtke's study which 
should be included in the record--
    Chairman Garrett. Yep.
    Mr. Copland. --showed was that the social issue investing, 
when that was the focus of the shareholder proposal activism by 
public pension funds--
    Chairman Garrett. Yep.
    Mr. Copland. --they had lower--it was associated with lower 
firm value than with those focused exclusively on other issues, 
or than private pension funds, which was really sort of the 
test case there.
    Chairman Garrett. And then you push that to who is actually 
making these decisions. And I thought you referred to, well, 
these are appointed people, elected officials?
    Mr. Copland. Well, that is certainly part of it. Part of 
the Copland-Malanga paper that I referenced that came out in 
February, is looking at the actual board governance of the 
pension funds.
    Chairman Garrett. Right. Right.
    Mr. Copland. They focus a lot on the board governance of 
corporations. But when you actually look at their board 
governance, it tends to be abysmal by the same standards they 
want to hold corporations to.
    And looking at, say, New York, where the sole fiduciary is 
an elected partisan official and then is filing most of the 
shareholder proposals--the funds are filing most of the 
shareholder proposals involving corporate political spending, 
we think that is an issue particularly where we have found an 
association between the likelihood that a Fortune 250 company 
draws a shareholder proposal involving corporate political 
spending and lobbying, and the propensity of that company's 
PACs and executives to give disproportionally to Republican 
candidates.
    Chairman Garrett. So is it fair to say the bottom line on 
that is that you see a poorer rate of return when these social 
issues are involved where, and it is truly the case of crony 
capitalism, but it is crony capitalism in the worst sense 
because it is connected to politics and the politicians being 
involved with it.
    Mr. Copland. Sure, sure. At the end of the day, the pension 
funds don't have to compete for capital. And at the end of the 
day, often there are constitutional backstops so the taxpayers 
will make up the deficits that the governor was talking about.
    Chairman Garrett. Got you. Thank you.
    Mr. Ellison? You are recognized.
    Mr. Ellison. Thank you. Now, I would like to just ask about 
what the potential impact of some of the provisions we are 
looking at regarding disclosure might be.
    Section 450 and 451 of the chairman's Wrong Choice Act 
would repeal the registration requirement for private equity 
fund advisors in Dodd-Frank and with it all the other 
protections in the Investment Advisors Act, aside from books 
and recordkeeping requirements that the SEC may impose.
    Similarly, we just considered H.R. 5424 on the House floor, 
which would have diminished the number of protections for 
investors in private equity funds, including basic disclosures 
like the change in ownership of advisor funds--a fund's 
advisor.
    And so I wonder if you all care to share any views on this 
issue? I would like to know what you think the importance of 
the current disclosures and other requirements that apply to 
private equity advisors and whether there is a need for even 
greater disclosure.
    Maybe we can go to other panelists but, I would like to 
start with Ms. Simpson.
    Ms. Simpson. Thank you for the question. Over half of 
CalPERS' portfolio is invested in public markets. But about a 
quarter is invested in private markets. And we have to 
understand that companies may begin in the private markets and 
graduate. And sometimes they are in the public markets and, you 
know, go back into the private markets.
    So for us, looking at the question of transparency and 
accountability, we are providers of capital into both public 
and private markets. So it is extremely important for us that 
the private equity universe matches our requirements for 
transparency and accountability. So this proposal is a matter 
of great regret.
    We don't think that it will assist with investors providing 
capital into this form of asset class. And it is one which is 
exceptionally important for our overall rate of return. So 
capital formation is just as important for companies coming to 
market as it is for those returning back to the private 
markets. And we need to see a level playing field.
    We think that is good for capital formation, and therefore, 
it is ultimately good for the companies, too. And if the 
companies do well, we do well. And that is how our investment 
returns will improve, is if the market returns improve, which 
is why the governance agenda is so important.
    Mr. Ellison. Any other panelists want to offer a view?
    Mr. Copland. Well, I will offer one, just in the sense that 
I think it is important to distinguish between a publicly 
traded corporation or a broad-based mutual fund and a private 
equity fund.
    I mean we have a system of securities laws that applies to 
publicly traded corporation under the premise that we are 
protecting small shareholders that may not be sophisticated, 
and so we want to make sure that enough information is getting 
out there to protect those small investors. Private equity 
funds are quite different.
    There is a reason why we are seeing more private equity, 
144A types of capital, being raised. They are raised from so-
called sophisticated investors, qualified investors, tend to be 
high net worth individuals and often pension funds and other 
investors, mutual funds, et cetera, that can take positions in 
those companies. So those are more sophisticated investors.
    I don't think it is correct to say that there should be an 
apples-to-apples disclosure regime between the two, because 
they are two very different types of investment.
    Representative Sherman, who is standing up, made the case 
earlier that maybe it is the private equity markets and the 
vibrancy of private capital that partially explains the 
decrease, the significant decrease, we have seen in publicly 
traded corporations over time.
    That may or may not be true, but we certainly don't want to 
discourage that option by applying rules that are intended for 
small investors to qualified, sophisticated investors.
    Mr. Ellison. Thanks a lot.
    I yield back.
    Chairman Garrett. Thank you. The gentleman yields back.
    The gentleman from California will have the last word, I 
believe.
    Mr. Royce. Thank you very much, Mr. Chairman. Thank you 
witnesses for being with us today. And, you know, I guess one 
of the things that really weighs on us, since the amount of 
income per worker is partly dependent upon investment per 
worker, and that is dependent upon productivity, which is 
dependent upon the money in our capital markets that go in it, 
and were invested.
    And yet, if we looked at this trend, the U.S. has half as 
many publicly traded companies traded on exchanges today, as it 
did in 1996. That is a pretty precipitous drop. And that trend 
is particularly alarming for a Californian like myself because, 
you know, the startup capital of the world is out in our neck 
of the woods.
    And so firms that would otherwise go public have been 
deterred and arguably, if you listen to the firms, they say 
they are deterred by unnecessary hurdles on compliance, which 
what was it Aristotle said, balance in all things which are 
unbalanced?
    And the consequences of that is unrealized economic growth 
that might otherwise occur, and job creation that might 
otherwise be driven.
    So Governor Engler, the stockholder proposal resubmission 
thresholds have not been changed since President Eisenhower's 
term here, and clearly they are outdated.
    But Rule 14a-8, also allows shareholders who have held 
$2,000 of a company's stock for 1 year to submit a proposal to 
be included in a company's proxy statement. So looking at that 
in its totality, what are the consequences for companies and 
everyday shareholders of this seemingly arbitrary and 
relatively low $2,000 floor? And I am just thinking this 
through.
    For example, just 20 shares or 0.000000003 percent of 
Apple's worth then you have that included in the company's 
proxy statement. How will scaling this barrier of entry to a 
company's valuation benefit shareholders and how would it 
benefit public companies? How would it benefit the economy?
    Mr. Engler. Congressman, it is a great question. I think 
when there is additional cost, whatever is the reason for it, 
and this is a set of circumstances that do raise costs. You 
heard a $90 million number tossed out earlier, but depending on 
the company, it can be more or less substantial.
    There is reputation risk also that can be brought into 
play. That is hard to put a value on. But it raises costs, and 
I would argue then diminishes shareholder value. And that 
shouldn't be a desirable thing, especially when the other side 
of this argument is that the question, or the proposal in this 
case, might have been around the track two, three or more times 
and has very low likelihood of any success.
    Yet it does distract however much from management time, 
from legal time, and it adds also, I think, complexity to a 
proxy statement which ought to be focused, as I testified 
earlier, in the most material things that can help an investor 
decide do I want to own this stock, or should I sell it?
    Mr. Royce. So again, we have half as many publicly listed 
companies trading on the exchanges. So I will ask you Governor 
Engler also about no-action letter decisions from the SEC that 
have been arguably erratic and inconsistent, especially since 
the Whole Foods case.
    Mr. Engler. Right.
    Mr. Royce. How has the growing failure to dismiss 
immaterial proposals impacted shareholders? And is keeping this 
decision process at the commission staff level appropriate? 
What does--
    Mr. Engler. Well, I--
    Mr. Royce. --Congress do here? How could Congress help on 
this?
    Mr. Engler. Congressman, I think that the first step is can 
we get the SEC back to work on this and can the commission 
itself address this? They have it within their own rulemaking 
authority to handle this problem.
    It was really created, we felt, by the staff initially. We 
are surprised that it wasn't addressed. There is a division 
clearly in thinking over at the commission, and so they punted 
on it. But the punt ended up putting a lot more, I would say, 
proposals with relatively little merit before shareholders, and 
it was unnecessary.
    Mr. Royce. Well, I thank you. I thank the panel here and 
Mr. Chairman, I think my time has expired.
    Chairman Garrett. I am sorry. The gentleman yields.
    Mr. Royce. I yield.
    Chairman Garrett. The gentleman yields back. And with that, 
I thank you all again for your time and input and the answering 
of the questions. We obviously touched upon some things that 
were off where we thought we were going to go, But that is all 
good as well.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    And with that, I thank all the witnesses. And without 
objection, this hearing is adjourned.
    [Whereupon, at 4:58 p.m., the hearing was adjourned.]









                            A P P E N D I X



                           September 21, 2016
                           
                           
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
                           
                           
                           
        
        
        
        
        
        
        
        
        
        
        
        
                           [all]
                           
                           
                           
                           
                           
 
</pre></body></html>
